No.
In The
Supreme Court of the United States
_____________________________
SARA DEES,
v.

Petitioner,

COUNTY OF SAN DIEGO,
Respondent.
_______________________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
_______________________________
APPENDIX TO THE
PETITION FOR A WRIT OF CERTIORARI
__________________________________

Donnie R. Cox (Bar No. 137950)
Counsel of Record
Law Office of Donnie R. Cox
11440 West Bernardo Court, Ste.300
San Diego, CA 92127
Telephone: (760) 400-0263
Facsimile: (760) 400-0269
drc@drcoxlaw.com

Paul W. Leehey (Bar No. 92009)
Law Office of Paul W. Leehey
PO Box 305
Fallbrook, CA 92088
Telephone: (760) 723-0711
Facsimile: (760) 723-6533
law@leehey.com
Robert R. Powell, SBN 159747
Powell & Associates
925 W. Hedding Street
San Jose, CA 95126
Telephone: (408)553-0200
Facsimile: (408)553-02303
rpowell@rrpassociates.com’

TABLE OF CONTENTS
Appendix A (Court of appeals opinion, filed
May 27, 2020 ........................................................... 1a
Appendix B (Court of appeals order, filed
August 19, 2020 ................................................... 26a
Appendix C (District Court order, filed
October 10, 2017 ................................................... 28a

i

APPENDIX A
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
No. 17-56621 and 17-56710
SARA DEES; L.G., a minor by and through her
Guardian Ad Litem, Robert Schiebelhut; G.G., a
minor by and through her Guardian Ad Litem,
Robert Schiebelhut,
Plaintiffs-Appellees / Cross-Appellants
v.
COUNTY OF SAN DIEGO,
Defendant-Appellant / Cross-Appellee
[Argued and Submitted October 23, 2019
Filed May 27, 2020]
Before: Andrew J. Kleinfeld, Consuelo M. Callahan,
and Ryan D. Nelson, Circuit Judges.
Opinion by Judge R. Nelson;
Partial Concurrence and Partial Dissent by Judge
Callahan

OPINION
R. NELSON, Circuit Judge:

2a

The County of San Diego appeals the district
court’s post-verdict grant of judgment as a matter of
law on Fourth and Fourteenth Amendment claims
regarding the alleged seizure of a minor, L, by a social
worker. Cross-Appellants L and Sara Dees appeal the
district court’s grant of summary judgment on their
Fourteenth Amendment claims regarding the
County’s false letter allegedly impairing their right to
familial association.
We reverse the district court’s grant of judgment
as a matter of law on L and Sara’s respective Fourth
and Fourteenth Amendment claims regarding the
seizure. We also reverse the district court’s
conditional grant of a new trial to Sara on her seizure
claim. We affirm the district court’s judgment in favor
of the County employees on L and Sara’s Fourteenth
Amendment claims involving the false letter.
Finally, we affirm the district court’s conditional
grant of a new trial on L’s Fourth Amendment claim.
I
On February 7, 2013, Ka and Ky’s biological
mother, Kelly Hunter, reported to San Diego County’s
Health and Human Services Agency (“Agency”) that
her ex-husband, Robert Dees, had taken naked photos
of their thirteen-year- old daughter, Ka. Hunter’s
referral was assigned to County social worker
Caitlynn McCann.
Pursuant to Agency policy, a companion referral
was created for L and G because they primarily
resided in the house that Robert shared with his wife,
Sara. L and G are Sara’s children from her prior
marriage to Alfredo Gil. L, a nine-year-old girl at the

3a

time, suffers from several cognitive disabilities. She
has been diagnosed with anxiety, ADHD, and is
“probably on the autism spectrum.” L is also very
bright, impulsive, and prone to outbursts.
McCann began her investigation by interviewing
Ka and attending a police interview of Robert. Both
Robert and Ka acknowledged that Robert had taken
naked photos of Ka, ostensibly at Ka’s request as part
of a project to document her body’s changes during
puberty. The police, after completing their forensic
interview with Robert, inspected the camera that had
been used to take the photos. According to Robert, the
photos of Ka had been deleted by Sara’s sister, who
discovered them. Robert would not allow the police to
take the camera because he claimed that it also
contained naked photos of him and Sara.
After McCann interviewed Robert and Ka, she
interviewed L. L told McCann that Hunter was trying
to “make Rob[ert] look wrong” and that Robert had
not taken any nude photos of her. At the end of the day,
Robert agreed, at McCann’s request, to move out of
the home during the investigation and to produce Ka
for a forensic interview.
The next day, McCann informed Gil, L and G’s
biological father, that he “was going to be given full
custody of . . . [his] two daughters . . . [because] their
step-father had taken nude photos of” Ka. Gil picked
up his daughters that day under the operative custody
arrangement. He arranged for L and G to stay at their
grandmother’s house during the following week, even
though L and G were scheduled to stay with Sara.
Sara and Robert subsequently secured legal

4a

counsel and a hearing at which they sought “to change
the custodial rights back to the . . . original custodial
rights.” The family court judge agreed, over Gil’s
objections, and ordered the children returned to Sara
pursuant to the preexisting custody arrangement.
Sara took back custody of L and G shortly thereafter.
After learning about the family court’s decision,
McCann’s supervisor ordered McCann to wrap up her
investigation. Agency policy required McCann to
complete a final welfare check on L and G, and “a lot
of loose ends. . . [and] discrepancies” still left McCann
suspicious that illegal activities were taking place.
McCann’s suspicions were not shared by the San
Diego Police Department, which closed its
investigation and advised McCann that the District
Attorney was not seeking a search warrant for
Robert’s camera. Still, McCann believed the criminal
investigation was ongoing.
McCann called the Dees to arrange a final
interview of L and G. L and G’s grandmother, who was
staying at the Dees’ home, told McCann that she was
not to interview L or G without an attorney present.
Despite the grandmother’s instruction, McCann went
to L and G’s school to interview them. McCann
believed that school district policy allowed her to
interview the kids at school in a case of suspected child
abuse. The school district’s policy does not require the
social worker to notify the parents or to obtain
parental consent, but the social worker must:
1. advise the child of the right to have school
personnel
present
during
the
interview[;]

5a

2. advise the child that (s)he may stop the
interview at any time and periodically
check with the child during the
interview to determine if (s)he is
comfortable
with
continuing
the
interview. If the child says to stop, then
the [social worker] will immediately
terminate the interview[;]
3. not include law enforcement in the
interview[; and]
4. complete
the
interview
within
developmentally-appropriate
time
limits, which will never exceed 60
minutes.
McCann asked a school assistant to bring L to the
administrative office. L was willing to talk with
McCann. McCann told L that a school official could
remain in the room, L could stop the interview at any
time, and if L had any questions, McCann would try
to answer them. L did not want a school official in the
room during the interview and never indicated that
she wanted to stop talking to McCann.
The interview lasted five minutes. McCann asked
L whether Robert, despite agreeing to remain out of
the house during the pendency of the investigation,
was, in fact, back in the house. McCann did not ask L
directly if Robert had taken nude photos of her but
understood from the conversation that no such photos
existed. The interview ended “naturally” when
McCann finished her questions and L indicated she
did not have any questions for McCann. A school
official then escorted L back to her classroom.

6a

L’s emotional state during and after the interview
is disputed. According to McCann, L was “diplomatic”
during the interview and was not upset immediately
after the interview. Sara, who happened to be in the
school when L was interviewed, disputes McCann’s
assessment of L’s emotional state. According to Sara,
L was upset after the interview, screaming “CPS is
here, CPS is here.”
Two days later, McCann was unambiguously
informed by the police that their investigation was
closed. A week later, McCann closed her own
investigation, finding any allegation that L was being
abused “unfounded”—meaning that she concluded,
under Agency policy, there had “been no shown abuse,
and there [was] no basis for the allegation.”
That same day, McCann sent a letter, signed by
Gloria Escamilla-Huidor and Alberto Borboa
(McCann’s supervisors), to the family court
overseeing the custody dispute between Sara and Gil.
The letter stated that “[a] decision has been made to
remove the child(ren) [L and G] from the custodial
parent [Sara] and place [them] with the non-custodial
parent [Gil] to avoid placing the child(ren) into
Polinsky Children’s Center, foster home or adjunct.”
The statement in the letter was false because L and G
were never removed from Sara’s custody. At trial, the
County’s own expert testified that the letter was “not
correct” and “ma[de] no sense.” McCann testified that
the quoted language was “standard language . . . [that
she] couldn’t have edited . . . if . . . [she] wanted to”
and that the letter “was sent on behalf of . . . [Gil], who
was concerned about his children and was looking for
custody.” The letter was received by the family court,
but the family court never acted on it. L and G have

7a

remained in Sara’s primary custody since February
13, 2013.
Sara and L brought multiple claims against the
County and various County employees alleging,
among other things, violations of their Fourth and
Fourteenth Amendment rights. In particular, Sara
and L brought claims against the County employees
alleging violations of the Fourteenth Amendment
right to familial association by sending the false letter
to the family court. The County employees moved for
summary judgment on those claims. Despite noting
that “McCann’s conduct in preparing the March 7
letter . . . [was] alarming,” the district court concluded
“the letter caused no harm to Plaintiffs.” Accordingly,
the district court granted summary judgment to
McCann, Huidor, and Borboa on Sara and L’s
Fourteenth Amendment claims related to the false
letter.
A jury trial was subsequently held on the
remaining claims. At the close of the County’s case,
Sara and L moved, pursuant to Federal Rule of Civil
Procedure (“Rule”) 50(a), for judgment as a matter of
law on their respective Fourteenth and Fourth
Amendment claims regarding McCann’s alleged
seizure of L. The district court took the motion under
advisement and submitted the case to the jury.
The jury returned a verdict in favor of the County
on all counts. The jury answered “No” to the question,
“Did Caitlin McCann violate the 4th Amendment
Constitutional rights of . . . [L] when she conducted
the school interview[]?” The jury also answered “No”
to the question, “Did Caitlin McCann violate the 14th
Amendment Constitutional right of Sara Dees when

8a

she conducted the ?” Because the jury concluded no
constitutional violations occurred, it did not reach
whether McCann was acting pursuant to an official
County policy, whether that policy caused the
constitutional violations, or whether L or Sara were
damaged by the constitutional violations.
L and Sara subsequently renewed their Rule 50(a)
motion under Rule 50(b) and, in the alternative, sought
a new trial pursuant to Rule 59. The district court
granted L and Sara’s renewed Rule 50 motion and
conditionally granted a new trial pursuant to Rules 59
and 50(c)(1). It made the following findings:
1. McCann seized L during the school interview;
2. McCann’s seizure of L was unreasonable
because there was no “warrant, court order,
parental consent, exigency, or at the very least,
reasonable suspicion to seize and interview L”;
3. McCann’s unreasonable seizure of L violated
Sara’s Fourteenth Amendment familial
association right;
4. McCann interviewed L pursuant to a County
policy; and
5. the County’s policy of allowing social workers
to interview children caused the constitutional
violations.
The County, Sara, and L filed timely notices of appeal.
Accordingly, the following claims are now before us:
1. Sara and L’s Fourteenth Amendment claim for
familial interference regarding the false letter;

9a

2. Sara’s Fourteenth Amendment claim against the
County regarding McCann’s seizure of L; and
3. L’s Fourth Amendment claim against the County
regarding her seizure by McCann.
II
A district court’s grant of summary judgment is
reviewed de novo. O’Rourke v. N. California Elec.
Workers Pension Plan, 934 F.3d 993, 998 (9th Cir.
2019).
A district court’s grant of judgment as a matter of
law is also reviewed de novo. Krechman v. County of
Riverside, 723 F.3d 1104, 1109 (9th Cir. 2013). We
“must view the evidence in the light most favorable to
the nonmoving party. . . and draw all reasonable
inferences in that party’s favor.” EEOC v. Go Daddy
Software, Inc., 581 F.3d 951, 961 (9th Cir. 2009)
(internal quotation marks omitted). The district court
may not weigh evidence or make credibility
determinations when reviewing a motion for
judgment as a matter of law. Id. “A jury’s verdict must
be upheld if it is supported by substantial evidence . .
. even if it is also possible to draw a contrary
conclusion from the same evidence.” Wallace v. City of
San Diego, 479 F.3d 616, 624 (9th Cir. 2007) (internal
quotation marks and citation omitted).
Finally, the district court’s ruling on a motion for
new trial is reviewed for abuse of discretion. OTR
Wheel Eng’g, Inc. v. W. Worldwide Servs., Inc., 897
F.3d 1008, 1022 (9th Cir. 2018). Indeed, “[t]he
authority to grant a new trial . . . is confided almost
entirely to the exercise of discretion on the part of the

10a

trial court.” Allied Chemical Corp. v. Daiflon, Inc., 449
U.S. 33, 36 (1980) (emphasis added). We may reverse
a district court’s grant of a new trial only if the jury’s

verdict is supported by the clear weight of the evidence and
“must uphold the district court if any of its grounds for
granting a new trial are reasonable.” United States v. 4.0
Acres of Land, 175 F.3d 1133, 1139 (9th Cir. 1999).

III
We begin with the Fourteenth Amendment claims,
including Sara and L’s appeal of the district court’s
grant of summary judgment on their claims regarding
the false letter. We then turn to the district court’s
grant of judgment as a matter of law and, in the
alternative, a new trial to Sara on her claim regarding
McCann’s seizure of L.
A
After the parties fully briefed their appeals, this
Court issued its decision in Capp v. County of San
Diego, 940 F.3d 1046 (9th Cir. 2019). In Capp, a father
and his two children sued the County of San Diego
and County social workers alleging violations of the
First, Fourth, and Fourteenth Amendments.
Specifically, the children alleged their Fourth
Amendment rights were violated when the social
workers seized and interviewed them during a child
abuse investigation into their father. Id. at 1059–60.
The father brought a separate Fourteenth
Amendment claim, id. at 1060, alleging the County
placed him on a child abuse monitoring list and
encouraged his ex-wife to withhold the children from
him while she sought custody in family court (which
was ultimately denied). Id. & n.9. This Court affirmed
the district court’s dismissal of the Fourth and

11a

Fourteenth Amendment claims. Id. at 1059–60. With
respect to the Fourteenth Amendment claims, we
stated:
Plaintiffs do not allege that Capp
actually lost custody of his children as

a result of Defendants’ alleged misconduct.
Capp might have been subjected to an
investigation by the Agency, but that alone
is not cognizable as a violation of the liberty
interest in familial relations.

Id. at 1060 (emphasis added) (footnote omitted).
Capp’s holding built on Mann v. County of San
Diego, 907 F.3d 1154 (9th Cir. 2018). In Mann, social
workers investigating a child abuse allegation
omitted exculpatory information from their
application to the family court to take custody of the
allegedly abused children. Id. at 1158. The family
court granted the application, and the social workers
removed the children from their parents’ custody. Id.
The social workers then took the children to a
temporary shelter for children and allowed medical
professionals
to
perform
invasive
medical
examinations on the children, including gynecological
and rectal exams. Id.
The parents of the children alleged that the
County violated their Fourteenth Amendment
substantive due process rights “when it perform[ed]
the . . . medical examinations without notifying the
parents about the examinations and without
obtaining either parents’ consent or judicial
authorization.” Id. at 1161. We reversed the lower
court and agreed with the parents’ position, holding
“the County’s failure to provide parental notice or to

12a

obtain consent violated . . . [the parents’] Fourteenth
Amendment rights.” Id. at 1164.
Reading Capp and Mann together, our Court
requires that, to establish a Fourteenth Amendment
claim based on a minor being separated from his or her
parents, plaintiffs must establish that an actual loss
of custody occurred; the mere threat of separation or
being subject to an investigation, without more, is
insufficient.
B
Applying our precedent to Sara and L’s Fourteenth
Amendment claims regarding the false letter, we
affirm the district court, but on alternate grounds.1
As we have described, the mere threat by a social
worker to take away a child is insufficient to support
a Fourteenth Amendment claim. Furthermore, the
improper conduct in Capp, which included falsely
informing the father that he had been placed on a sex
offender list and actively encouraging the mother to
withhold the child and seek sole custody in family
court, goes well beyond the conduct at issue here. 940
F.3d at 1060. Mann is the same. In that case, the bases
of the parents’ Fourteenth Amendment claims were
the gynecological and rectal exams performed on the
1
The district court granted summary judgment to the County on
Sara and L’s Fourteenth Amendment claims regarding the false
letter because “the letter caused no harm to Plaintiffs.” This
holding is difficult to reconcile with our precedent and the
Supreme Court’s holding that “the denial of procedural due
process should be actionable for nominal damages without proof
of actual injury.” Carey v. Piphus, 435 U.S. 247, 266 (1978); see
also Draper v. Coombs, 792 F.2d 915, 921 (9th Cir. 1986)
(applying Carey to a substantive due process claim).

13a

children without parental notification or consent. 907
F.3d at 1161. The admittedly false letter falls short of
the offending conduct in Capp and pales in
comparison to the conduct in Mann.
Sara’s argument to the contrary is unpersuasive.
She characterizes the false letter as a ticking “time
bomb” waiting to go off if the family court ever reopens
the case. But that analogy is pure hyperbole,
especially since the family court did nothing after
receiving the letter. We have no doubt that, if the
family court case is ever reopened, ample evidence—
and a citation to this opinion—will dissuade the
family court from taking any action based on what all
acknowledge is a false representation in the letter.
Sara also claims McCann violated her Fourteenth
Amendment familial association right when McCann
allegedly seized L at school. This presents a closer
question. But again, in light of our discussion above,
we conclude that Capp bars Sara from successfully
pursuing this claim. Capp plainly holds that a cause
of action does not lie where the social worker is
accused of seizing a child and the parent has not
“actually lost” control over the child. Id. at 1060. Here,
McCann’s interview of L lasted five minutes. No
evidence suggests that McCann interviewed L to
coerce or otherwise intimidate either Sara or L.
Instead, McCann simply intended to “wrap things
up.” In effect, Sara never actually lost control over L.
Moreover, as we hold below, see infra § IV.A, the
district court erred in granting L judgment as a
matter of law on her Fourth Amendment claim, which
also precludes Sara’s Fourteenth Amendment claim
on the seizure. Accordingly, we reverse the district
court’s grant to Sara of judgment as a matter of law

14a

and, in the alternative, a new trial.
IV
Finally, we turn to L’s Fourth Amendment claim
regarding her alleged seizure at school. L’s claim went
to the jury, which answered “No” to the question of
whether “Caitlin McCann violate[ed] the 4th
Amendment Constitutional rights of . . . [L] when she
conducted the –?” Post-trial, the district court set
aside the jury verdict and concluded that, as a matter
of law, McCann unreasonably seized L. In the
alternative, the district court conditionally granted a
new trial to L on this claim. In doing so, the district
court made several findings, but on appeal the County
challenges only one finding: that the interview was an
unreasonable seizure. Because we agree on de novo
review with the County that substantial evidence
supports the jury’s verdict regarding the school
interview, we reverse the district court’s grant of
judgment as a matter of law. But because the clear
weight of the evidence does not support the jury’s
verdict, in combination with our healthy deference to
the trial court, we affirm the grant of a new trial.
A
The Fourth Amendment protects a child’s right to
be free from unreasonable seizure by a social worker.
See Kirkpatrick v. Cty. of Washoe, 843 F.3d 784, 790–
91 (9th Cir. 2016) (en banc). “A ‘seizure’ triggering the
Fourth Amendment’s protections occurs only when
government actors have, ‘by means of physical force or
show of authority. . . in some way restrained the liberty
of a citizen.’” Graham v. Connor, 490 U.S. 386, 395
n.10 (1989) (quoting Terry v. Ohio, 392 U.S. 1, 19 n.16

15a

(1968)). “When the actions of the [official] do not show
an unambiguous intent to restrain or when an
individual’s submission to a show of governmental
authority takes the form of passive acquiescence . . . a
seizure occurs if, ‘in view of all of the circumstances
surrounding the incident, a reasonable person would
have believed that he was not free to leave.’” Brendlin
v. California, 551 U.S. 249, 255 (2007) (quoting
United States v. Mendenhall, 446 U.S. 544, 554 (1980)).
Whether a person is seized for purposes of the Fourth
Amendment is a mixed question of law and fact.
United States v. Cormier, 220 F.3d 1103, 1110 (9th
Cir. 2000). Whether a person is being compelled to
answer an official’s questions, rather than freely
consenting to answer them, is a question of fact.
United States v. Ryan, 548 F.2d 782, 789 (9th Cir.
1976).
Turning to this case, the district court
inappropriately weighed the facts when it granted
judgment as a matter of law. In determining whether
L did not consent to the interview, the district court
discounted the fact that the interview lasted only five
minutes.
Additionally,
the
district
court
acknowledged McCann’s testimony that “L did not
seem upset,” but then concluded, apparently solely on
the basis of Sara’s testimony, that “the circumstances
show that L was upset by the interview.” Finally, the
district court did not consider that L failed to end the
conversation with McCann despite being explicitly
told that she could do so. Broadly, the district court
inappropriately weighed the facts before it, despite
acknowledging, earlier in the proceedings, that
seizure and consent are fact intensive inquires for
which the jury is well suited to make the
determinations.

16a

Nor do the cases upon which the district court
relied in its decision to grant L judgment as a matter
of law—Greene v. Camreta, 588 F.3d 1011 (9th Cir.
2009) vacated in part sub nom. Camreta v. Greene, 563
U.S. 692 (2011); Stoot v. City of Everett, 582 F.3d 910
(9th Cir. 2009); Jones v. Hunt, 410 F.3d 1221 (10th
Cir. 2005); and Doe v. Heck, 327 F.3d 492 (7th Cir.
2003)—compel the conclusion that L was seized and
did not consent to the interview. Each case is factually
distinguishable. First, in each case a police officer
either conducted the interview or was present during
the interview. Greene, 588 F.3d at 1017; Stoot, 582
F.3d at 913; Jones, 410 F.3d at 1226; Heck, 327 F.3d
at 510. No police officer was present during McCann’s
interview of L. Furthermore, the interviews in Greene,
Stoot, and Jones lasted anywhere from one to two
hours. Greene, 588 F.3d at 1017; Stoot, 582 F.3d at
915; Jones, 410 F.3d at 1226. In Heck, the interview
lasted twenty minutes. 327 F.3d at 510. Here, in
contrast, McCann’s interview of L was just five
minutes. To be sure, the fact that L was nine and
suffers from cognitive difficulties creates a higher
probability that she did not feel free to leave or may
not have consented to the interview. But, at a
minimum, the factual differences between Greene,
Stoot, Jones, and Heck on the one hand and this case
on the other, undermines reliance on those cases here.
In short, the district court erred in finding that those
cases compelled the conclusion that L was seized and
did not consent as a matter of law.
At bottom, the district court impermissibly
weighed the evidence before it and concluded that L
was seized and did not (or could not) consent as a
matter of law. As the district court, Sara, and L all

17a

acknowledge, the facts both support and undercut the
jury’s verdict. Viewing the evidence in the light most
favorable to the County and granting the County all
inferences therefrom, substantial evidence supports
the jury’s verdict. None of the caselaw cited by the
district court, Sara, or L supports the conclusion that,
under the facts of this case, L was seized and did not
consent as a matter of law. Accordingly, we reverse
the district court’s grant to L of judgment as a matter
of law on her Fourth Amendment claim.
B
Although we reverse the district court’s grant of
judgment as a matter of law to L on her Fourth
Amendment claim, we affirm the district court’s grant
of a new trial. We acknowledge the tension in this
decision. Above, we conclude that the district court
erred by granting L judgment as a matter of law.
Here, we conclude that the district court properly
granted a new trial on the same claim. But such a
decision is not unprecedented in this Circuit or our
sister circuits. See Garter-Bare Co. v. Munsingwear
Inc., 723 F.2d 707, 716–17 (9th Cir. 1984) (reversing
grant of judgment as a matter of law to a defendant
while simultaneously affirming the grant of a new
trial to the same defendant); Christopher v. Florida,
449 F.3d 1360, 1362 (11th Cir. 2006) (same).
This result is not inherently contradictory and is
driven by the standard of review. The district court’s
ruling on a motion for new trial is reviewed for abuse
of discretion instead of de novo review, which we
applied above. See OTR Wheel Eng’g, Inc., 897 F.3d at
1022. Indeed, “[t]he authority to grant a new trial . . .
is confided almost entirely to the exercise of discretion
on the part of the trial court.” Allied Chemical, 449

18a

U.S. at 36 (emphasis added). The district court’s
decision to grant a new trial must stand unless the
jury’s verdict is supported by the clear weight of the
evidence and we “must uphold the district court if any
of its grounds for granting a new trial are reasonable.”
4.0 Acres of Land, 175 F.3d at 1139.
With this highly deferential standard of review
firmly in mind, we turn to the district court’s opinion.
The bulk of the opinion analyzes whether Sara and L
were entitled to judgment as a matter of law. On the
final page of the opinion, the district court
acknowledged its obligation to rule on the alternative
motion for a new trial and held “the Court
conditionally grants the motion for a new trial
because the clear weight of the evidence does not
support the verdict.”
First, we dispose of the sole argument offered by
the County regarding the district court’s decision to
order a new trial: namely, that the district court
“failed to identify how the verdict was against the
clear weight of the evidence, or what evidence it relied
on in reaching that conclusion.” We disagree. The
district court issued a well-reasoned, though
ultimately incorrect, opinion granting judgment as a
matter of law, which is, of course, a higher standard
for plaintiffs to meet than the standard for a new trial.
Requiring the district court to copy and paste its
judgment as a matter of law analysis under a separate
header for a new trial makes little, if any, sense. The
district court did not abuse its discretion by failing to
do so.
Second, the district court did not abuse its
discretion by ordering a new trial. Properly framed,

19a

the question is whether the district court abused its
discretion in concluding that the jury’s verdict was not
supported by the clear weight of the evidence. 4.0
Acres of Land, 175 F.3d at 1139. The County’s burden
in persuading us that the district court abused its
discretion is an extraordinarily high hurdle, as the
Supreme Court has made clear. Allied Chemical
Corp., 449 U.S. at 36.
Rightfully so. The district court, having sat
through all of the testimony and with the benefit of
credibility determinations that cannot readily be
made on a cold record, felt so strongly that the jury
erred that he ordered a new trial. Moreover, the facts
here support the “reasonableness” of the district
court’s opinion: it is at least arguable whether a nineyear old girl with cognitive disabilities, called into the
administrative office of her school by a woman who
she knew had the authority to disrupt her family’s
life, would feel empowered to leave or could have
consented to the discussion. Cf. J.D.B. v. North
Carolina, 564 U.S. 261, 272 (2011) (holding that a
thirteen-year-old’s age would have affected how a
reasonable person in the suspect’s position would
perceive his or her freedom to leave for purposes of
Miranda’s
custody
determination
(quotations
omitted)). While substantial evidence supports the
jury’s verdict, the clear weight of the evidence does not
compel it. In short, the district court did not abuse its
discretion in concluding that the jury’s verdict was not
supported by the clear weight of the evidence.
V
Sara and L’s Fourteenth Amendment claims
regarding the false letter are barred by our decisions

20a

in Capp and Mann, as is Sara’s Fourteenth
Amendment claim regarding the school seizure.
Moreover, substantial evidence supported the jury’s
verdict in favor of the County on L’s Fourth
Amendment claim. However, the district court did not
abuse its discretion in concluding that the clear weight
of the evidence did not support the jury’s verdict on L’s
Fourth Amendment claim.
Each party shall bear its own costs on appeal.
AFFIRMED IN PART and REVERSED AND
REMANDED IN PART.
CALLAHAN, Circuit Judge, concurring in part and
dissenting in part:
I concur in the majority opinion affirming the
district court’s judgment in favor of the County
employees on the claims involving the false letter,
reversing the district court’s grant of judgment as a
matter of law on L and Sara’s Fourth and Fourteenth
Amendment claims regarding seizure, and reversing
the conditional grant of a new trial to Sara on her
seizure claim. However, I would vacate the district
court’s conditional grant of a new trial to L. The
majority sustains the district court’s grant of a new
trial holding that the district court did not abuse its
discretion in deciding that the jury’s verdict was not
supported by the clear weight of the evidence. I
disagree.
As noted by the majority, in United States v. 4.0
Acres of Land, 175 F.3d 1133, 1139 (9th Cir. 1999), we
held that a “trial court may grant a new trial, even
though the verdict is supported by substantial

21a

evidence,” and that we should “uphold the district
court if any of its grounds for granting a new trial are
reasonable.” But we also stated that such a grant is
proper only “if ‘the verdict is contrary to the clear
weight of the evidence, or is based upon evidence
which is false, or to prevent, in the sound discretion of
the trial court, a miscarriage of justice.’” Id. (quoting
Oltz v. St. Peter’s Community Hosp., 861 F.2d 1440,
1452 (9th Cir.1988)). We noted that “[t]he corollary, of
course, is that a district court may not grant or deny
a new trial merely because it would have arrived at a
different verdict.” Id. (citing Wilhelm v. Associated
Container Transp. (Australia) Ltd., 648 F.2d 1197,
1198 (9th Cir. 1981)). We held that “we may find that
a district court abused its discretion in ordering a new
trial if the jury’s verdict is not against the clear weight
of the evidence.” Id. (citing Roy v. Volkswagen of Am.
Inc., 896 F.2d 1174, 1176 (9th Cir. 1990), amended,
920 F.2d 618 (1991)). In 4.0 Acres, we actually vacated
the grant of a new trial, noting that “[w]here the jury’s
verdict is not against the clear weight of the evidence,
a district court abuses its discretion in ordering a new
trial.” Id. at 1143.
This is one of those instances where the district
court abused its discretion in granting a new trial
contrary to the jury’s determination. The question
whether “Caitlin McCann violat[ed] the 4th
Amendment Constitutional right of . . . [L] when she
conducted the school interview” was put to the jury.
The jury, which heard all the evidence, answered “No.”
The brevity of the in-school interview was not
contested. Nor was L’s agreement to speak with
McCann or her behavior during the interview. There
was some conflicting evidence as to L’s subsequent
reaction to the interview, but, again, the jury heard

22a

all that evidence. Even giving all of L’s witnesses the
benefit of the doubt, a jury would not likely conclude—
in light of the uncontested facts surrounding the
interview—that the five-minute interview violated L’s
Fourth Amendment constitutional rights.
As the majority correctly notes in vacating the
district court’s grant of judgment as a matter of law,
our prior decisions cited by L do not require a finding
that her interview constituted an unreasonable
seizure. Our most recent precedent, Greene v.
Camreta, 588 F.3d 1011 (9th Cir. 2009), concerned a
two-hour questioning of an elementary school girl by
a social worker and an armed police officer in a
private office at the girl’s school. Id. at 1015. The
social worker did not have a warrant, probable cause,
or parental consent. Id. The defendants did not
contest that the two-hour interview constituted a
seizure but argued that it was not unreasonable. Id.
at 1022. We recognized that the defendants’ claim of
qualified immunity required a delicate balancing of
competing interests, and we ultimately held that
although the two-hour interview constituted an
unreasonable seizure in violation of the young girl’s
constitutional rights, the defendants were entitled to
qualified immunity.2 Id. at 1033.
Recognizing that Greene was a close case, what in
our case supports the determination that the jury
verdict was not supported by the clear weight of the
Similarly in Stoot v. City of Everett, 582 F.3d 910 (9th Cir.
2009), where a fourteen-year-old boy was taken out of his school
class and interviewed for about two hours, the defendant officer
did not contest that the interview constituted a seizure. In Stoot,
we again affirmed the district court’s grant of qualified immunity
for the seizure.
2

23a

evidence? Certainly, as the majority asserts, it “is at
least arguable whether a nine- year old girl with
cognitive disabilities, called into the administrative
office of her school by a woman who she knew had the
authority to disrupt her family’s life, would feel
empowered to leave or could have consented to the
discussion.” Majority at 21. But, at most, these
considerations support a determination that the
interview constituted a seizure. They do not require,
or inherently support, a determination that the
“seizure” was unreasonable.
More importantly, what is “at least arguable” does
not address the weight of the evidence. A number of
uncontested facts support the jury’s verdict. Although
L suffers from several cognitive disabilities, she is very
bright. She was asked if she wanted a school staff
member to be present during the interview and she
said no. L was asked if she was willing to talk to
McCann, and she agreed to do so. The interview lasted
only five minutes, during which L answered McCann’s
questions and indicated that she did not have any
questions for McCann. After the interview L was
escorted back to her classroom and, according to
school officials, did not seem upset.3
My colleagues and I agree that substantial
evidence supported the jury’s verdict. We not only
conclude that the trial court erred in granting
judgment as a matter of law by improperly weighing
the evidence, but, critically, we also conclude that the
evidence was sufficient to support the jury’s verdict.
Majority at 19 (“None of the caselaw cited. . . supports
Contrary to the situation in Greene, there is no indication that
McCann was threatening, and she was not accompanied by a
police officer (a fact that was stressed in our opinion in Greene).

3

24a

the conclusion that, under the facts of this case, L was
seized and did not consent as a matter of law.”). In
light of this determination, for us to sustain the grant
of a new trial, it should be clear what evidence is
contrary to the jury’s verdict. Here, the only
explanation offered by the trial court was its
understanding of the applicable law, which we have
held was incorrect. Furthermore, this is not a
situation where a party could not present all the
relevant information to the jury or where the judge
was privy to information not shared by the jury.4
This appeal presents a relatively unique
situation. After an issue had been referred to a jury
and the jury returned its decision, the trial court
granted judgment as a matter of law and conditionally
granted the motion for a new trial, contrary to the
jury’s determination. Then, on appeal, we hold that
district court erred in granting judgment as a matter
of law, and (2) the jury’s finding is supported by
substantial evidence. In such a situation, the grant of
a motion for a new trial is an abuse of discretion unless
it is clear from the record, or from the trial court’s
explanation, why the jury’s verdict was not supported
by the clear weight of the evidence. See 4.0 Acres, 175
F.3 at 1143 ( “Where the jury’s verdict is not against
the clear weight of the evidence, a district court
abuses its discretion in ordering a new trial.”).
Because my review of the record reveals substantial
evidence that supports the jury’s determination, and
the trial court has not indicated what evidence might
undermine the jury’s verdict, I would vacate the grant
4 There is no suggestion that any of the evidence presented was
false and we see no evidence of a “miscarriage of justice.” See 4.0
Acres, 175 F.3d at 139.

25a

of the motion for new trial.

26a

APPENDIX B
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
No. 17-56621 and 17-56710
SARA DEES; L.G., a minor by and through her
Guardian Ad Litem, Robert Schiebelhut; G.G., a
minor by and through her Guardian Ad Litem,
Robert Schiebelhut,
Plaintiffs-Appellees / Cross-Appellants
v.
COUNTY OF SAN DIEGO,
Defendant-Appellant / Cross-Appellee
[August 19, 2020]

ORDER
Before: KLEINFELD, CALLAHAN, and R.
NELSON, Circuit Judges.
Plaintiffs-Appellees filed a petition for
rehearing and rehearing en banc on July 27, 2020
(Dkt. No. 82). The panel has voted to deny the petition
for rehearing. Judges R. Nelson and Callahan voted
to deny the petition for rehearing en banc, and Judge
Kleinfeld so recommends.

27a

The full court has been advised of the petition
for rehearing en banc and no judge of the court has
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petition for rehearing and rehearing en
banc is DENIED.

APPENDIX C
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF CALIFORNIA

Case No. 3:14-cv-0189-BEN-DHB
SARA DEES; L.G., a minor, and G.G., a minor, by
and through their Guardian ad Litem, Robert
Schiebelhut, Plaintiffs,
v.
COUNTY OF SAN DIEGO; CAITLIN MCCANN;
SRISUDA WALSH, and GLORIA ESCAMILLAHUIDOR, Defendants.

[Filed October 10, 2017]
ORDER GRANTING MOTION FOR
JUDGMENT AS A MATTER OF LAW

In February 2013, Defendant Caitlin McCann
(“McCann”), a social worker for Defendant County of
San Diego, Health and Human Services Agency (the
“County”), investigated the Dees family regarding
allegations of child sexual abuse. After interviewing
the parents and children, the investigation was closed
as unfounded. Subsequently, Sara Dees and her two

29a

minor children, L.G. and G.G., sued McCann and the
County for violations of their constitutional rights
during the investigation. The case was tried before a
jury from February 7, 2017 to February 13, 2017. The
jury returned a verdict in favor of Defendants on all
claims.
Plaintiffs now move for judgment as a matter
of law on their Monell claim against the County. They
contend that McCann conducted an unconstitutional
interview of L at her school pursuant to the County’s
policy and practice that permits children to be
interviewed at school at any time without parental
consent, exigency, or court order, as long as a child
abuse investigation is open. Plaintiffs ask the Court
to overturn the jury’s verdict and order a new trial on
the question of damages. Alternatively, they request
the Court order a new trial as to liability. (Mot., ECF
No. 151). The County opposes the motion. (Opp’n,
ECF No. 158).
This case requires the Court to carefully
consider competing interests in two extremely
sensitive subjects. On the one hand, the crime of child
sexual abuse is heinous and “society has a compelling
interest in protecting its most vulnerable members
from abuse within their home.” Greene v. Camreta,
588 F.3d 1011, 1015 (9th Cir. 2009), vacated in part
as moot by 563 U.S. 692 (2011). On the other hand,
the mere accusation of an alleged crime “does not
provide cause for the state to ignore the rights of the
accused or any other parties.” Wallis v. Spencer, 202
F.3d 1126, 1130 (9th Cir. 2000). Parents have an
“exceedingly strong interest” in raising their children
as they see fit and protecting both themselves and
their children from intrusive, embarrassing

30a

government investigations. Greene, 588 F.3d at 1016.
Here, the Court’s task is delicate because not only
must it resolve this conflict, it also must decide
whether to disturb the collective judgment of the jury.
With these considerations in mind, the Court has
reviewed the record and the law. The Court concludes
that the jury’s verdict on the Monell claim was in error
and grants Plaintiffs judgment as a matter of law.
BACKGROUND1
Plaintiff Sara Dees is married to Robert Dees.
Sara has two children from a prior marriage to Mr.
Alfredo Gil, Plaintiffs L.G. and G.G. At the time of the
events that are the subject of this action, L was nine
years old and suffered from anxiety and ADHD.
Because of these disorders, changes to L’s routine
could “set her off” and cause her to “melt down.”
Subsequent to the events at issue, L’s psychiatrist has
suggested that L may have autism spectrum disorder.
G was five years old at the time. Robert also has two
children from a prior marriage to Ms. Kelly Hunter,
Ka. and Ky. Sara, Robert, and the four children all
resided together.
On Thursday, February 7, 2013, Ms. Hunter
called the hotline for Child Welfare Services, a
division of the County’s Health and Human Services
Agency, to report that Robert had taken naked photos
of their daughter, Ka. Ms. Hunter explained that the
Both parties move to seal trial transcripts and trial exhibits.
(ECF Nos. 150, 159). The parties do not contend that they sought
to seal these materials during trial. Rather, the information in
the documents became part of the public record during trial. As
such, the parties have waived the issue. The motions to seal are
DENIED.

1

31a

photographs were taken at Ka.’s request because she
wanted to document her body as it changed during
puberty. Ms. Hunter informed the hotline
representative that Ka. lived with her father in a
blended household with Sara and her biological
children. Child Welfare Services generated two
referrals: one for Ka. and Ky. and a companion
referral for L and G.
McCann was assigned to investigate the
referrals. That day, McCann interviewed the four
children living in the Dees home. Ka. explained that
she asked her dad to photographically document her
changing body. She did not feel uncomfortable in any
way, and she thought she and her father had a
healthy relationship. The three other children all said
that they had never been inappropriately
photographed and did not know of any inappropriate
photographs of anyone else. The interviews of L and
G occurred at home in their bedrooms with the door
open. Sara had consented to the interviews but was
not present during them.
McCann continued the investigation for the
next few weeks, but she did not learn anything
indicating that the children were being abused or
neglected. McCann interviewed other family
members and family members’ therapists. Ka. also
submitted herself for a forensic interview.
On or about February 11, 2013, the Family
Court ordered Robert Dees to live outside of the home
during the investigation. However, on or about
February 13, 2013, the Family Court decided against
making changes to the custody of the Gil children,
leaving primary physical custody of L and G with

32a

Sara. McCann’s supervisor, Srisuda Walsh, learned
about the Family Court’s custody order sometime
around February 13. She subsequently instructed
McCann to close her investigation.
At some point, the San Diego Police
Department (“SDPD”) opened a companion
investigation. But on February 21, 2013, McCann
spoke with the investigating SDPD detective, who
informed McCann that the SDPD and District
Attorney would not be pursuing a case.
That should have been the end. It was not.
On February 25, 2013, McCann interviewed L’s
teacher. According to McCann, nothing in the
interview raised any concerns. The teacher explained
that L has behavioral problems and appears very
needy, but is smart and quick with her work. McCann
testified that at the end of the day on February 25,
2013, she had no information to lead her to believe
that the children were in any danger.
Yet, on February 26, 2013, McCann went to L
and G’s school to interview them. Ostensibly, McCann
decided to interview L and G because she wanted to
“wrap up [her] investigation . . . , make sure that [the
children] were okay, and . . . get out of their lives.”
(2/9/17 Trial Tr. at 230:6-10). She also said she wanted
to ensure that Robert Dees was not living in the home.
This time, McCann neither asked, nor received,
Sara’s or Mr. Gil’s consent to talk to the children. She
admitted that four days earlier, on February 22, 2013,
she had spoken to the children’s grandmother to ask
whether she could interview them. The grandmother

33a

said that McCann could only speak with the children
in the presence of an attorney. She informed McCann
that she intended to tell Sara about the conversation.
Despite this notice from the grandmother, McCann
conducted the unconsented interview because “per
[the County’s] policy, [she] can interview kids at
school.” (2/9/17 Trial Tr. at 230:17-18, 232:7-11; see
also 2/8/17 Trial Tr. at 144:4-5).
The County’s written policy provides that
“[Child Welfare Services social workers (“SWs”)] are
authorized to interview a suspected victim of child
abuse during school hours and to conduct the
interview on school grounds.” (Pls.’ Ex. 3, County’s
Policy). The policy states:
A SW may interview a child who may be
a victim of abuse or neglect without a
parent’s consent. (This may include
other children in the referred family
since they may be potential victims.)
However, a child who is not an alleged
victim or member of the referred family
cannot be interviewed without a
parent’s consent.
(Id. (emphasis in original)).
The policy requires the social worker to comply
with certain procedures during the interview:
•
•

The SW will:
Advise the child of the right to have school
personnel present during the interview
Advise the child that (s)he may stop the
interview at any time and periodically check

34a

•
•

with the child during the interview to
determine if (s)he is comfortable with
continuing the interview. If the child says stop,
then the SW will immediately terminate the
interview
Not include law enforcement in the interview
Complete
the
interview
within
developmentally-appropriate
time
limits,
which will never exceed 60 minutes.

(Id.) Leesa Rosenberg, who testified as the person
most knowledgeable about the County’s policies
regarding interviews of children during child abuse
investigations, characterized these procedures as
safeguards to protect the child’s rights. The policy
does not advise the child that he or she may decline to
be interviewed. Nor does the policy include any
guidance about when to inform a parent about the
interview. Rosenberg stated that, at the time of the
events at issue, the County’s policies allowed a social
worker to interview a child at school without the
knowledge and consent of a parent and without a
court order.
Similarly, Walsh testified that it was the
practice of the County’s social workers to interview
children at school even if the children were not in
imminent danger and without parental consent, as
long as the social worker had an open investigation.
McCann confirmed this practice.
When McCann arrived at the school, L was
called out of class and brought to the school’s
administrative office to speak with McCann. McCann
testified that when she introduces herself to children,
she tries to be “friendly and nice.” McCann asked L if

35a

she was willing to speak with McCann, and L replied
affirmatively. McCann also asked L if she wanted
anyone present, and L said no. McCann informed L
that she could end the interview at any time and that
she could ask any questions. McCann interviewed L
in an unoccupied office in the school’s front office area.
McCann described L as appearing “fine” and “not . . .
upset at all.” (2/8/17 Trial Tr. at 147:7-8; 2/9/17 Trial
Tr. at 232:14-15).
McCann asked L how she was doing. L “was
brief when speaking to” McCann. (Pls.’ Ex. 2,
McCann’s Delivered Service Log). L said that since
the last time she saw McCann, “things have gotten
worse” because “[redacted] can’t stay home unless
their grandmother is home, and they have to go
everywhere with her.” (Id.) When asked if she likes
her grandmother, L responded that “she’s ok.” (Id.)
McCann also asked about Robert Dees and the
photographs. L told McCann that Robert was not
living in the home. L thought it was “stupid that
[Robert] can’t live in his own house” and reported that
Sara “doesn’t like” it. (Id.) L “denied [that] any
pictures have been taken of her or knowing about any
pictures taken of anyone else in her home.” (Id.)
The interview lasted approximately five
minutes. L did not “get up and walk away from
[McCann] in the middle of a[ny] question[s].” (2/9/17
Trial Tr. at 236:19-21). McCann testified that the
interview ended “naturally” as “there were no other
questions [she] had,” and she told L that L could
return to class. (2/9/17 Trial Tr. at 236:13-15). She
admitted, “I guess [it] would be that I ended the
interview.” (2/9/17 Trial Tr. at 236-15-16). McCann
testified that L did not seem upset.

36a

Ironically, Sara testified that she was
volunteering in G’s classroom that day. She saw L
come “screaming down the hallway,” yelling “CPS is
here, CPS is here.” L told Sara that “CPS wants to
talk to [G] right now. Hurry, hurry.” (2/8/17 Trial Tr.
at 222:23-223:1-5). L asked her mother if McCann was
there “to take” her. (2/8/17 Trial Tr. at 237:19-20).
Sara walked with L and G to the school’s front office.
She testified that L appeared upset, was
hyperventilating, and was running around the front
office.
McCann eventually closed her investigation on
March 7, 2013, approximately three weeks after
Walsh had told her to close it. All the allegations were
determined to be unfounded.
At trial, Plaintiffs moved for judgment as a
matter of law at the close of evidence, which the Court
took under submission. On February 13, 2017, the
jury found in Defendants’ favor on all claims.
Specifically, the jury concluded that McCann did not
violate the Fourth Amendment rights of L or the
Fourteenth Amendment rights of Sara when she
conducted the school interview. (Verdict Form 2, ECF
No. 144). Because the jury did not find a
constitutional violation, it did not consider whether
McCann acted pursuant to an official County policy or
practice and whether that policy or practice was the
cause of the violation. (Id.)

37a

LEGAL STANDARDS
I.

Legal Standard for Judgment as a Matter
of Law

Under Federal Rule of Civil Procedure Rule 50,
a court may enter judgment as a matter of law once “a
party has been fully heard on an issue” and “the court
finds that a reasonable jury would not have a legally
sufficient evidentiary basis to find for the party on
that issue.” Fed. R. Civ. P. 50(a)(1). In other words,
the jury verdict should be overturned and judgment
as a matter of law entered “if the evidence, construed
in the light most favorable to the nonmoving party,
permits only one reasonable conclusion, and that
conclusion is contrary to the jury’s verdict.” Pavao v.
Pagay, 307 F.3d 915, 918 (9th Cir. 2002). The “jury’s
verdict must be upheld if it is supported by
substantial evidence, which is evidence adequate to
support the jury’s conclusion, even if it is also possible
to draw a contrary conclusion.” Id.
In evaluating a motion for judgment as a
matter of law, a court does not make credibility
determinations or weigh the evidence. See Reeves v.
Sanderson Plumbing Prods., Inc., 530 U.S. 133, 150
(2000). “Credibility determinations, the weighing of
evidence, and the drawing of legitimate inferences
from the facts are jury functions, not those of a judge.”
Id. Instead, the court “must draw all reasonable
inferences in favor of the nonmoving party.” Id. “That
is, the court should give credence to the evidence
favoring the nonmovant as well as ‘that evidence
supporting the moving party that is uncontradicted
and unimpeached, at least to the extent that that

38a

evidence comes from disinterested witnesses.’” Id. at
151 (internal citation omitted).
II.

Legal Standard for a New Trial

Under Federal Rule of Civil Procedure 59(a), a
new trial may be granted on all or some of the issues
“for any reason for which a new trial has heretofore
been granted in an action at law in federal court.” Fed.
R. Civ. P. 59(a)(1)(A). Because “Rule 59 does not
specify the grounds on which a motion for a new trial
may be granted,” the court is bound by historically
recognized grounds. Zhang v. Am. Gem Seafoods, Inc.,
339 F.3d 1020, 1035 (9th Cir. 2003). These include
verdicts against the weight of the evidence, damages
that are excessive, and trials that were not fair to the
moving party. Molski v. M.J. Cable, Inc., 481 F.3d
724, 729 (9th Cir. 2007); see also Passantino v.
Johnson & Johnson Consumer Prods., 212 F.3d 493,
510 n.15 (9th Cir. 2000) (“The trial court may grant a
new trial only if the verdict is contrary to the clear
weight of the evidence, is based upon false or
perjurious evidence, or to prevent a miscarriage of
justice.”).
Although the Court may weigh the evidence
and assess the credibility of witnesses when ruling on
a Rule 59(a) motion, it may not grant a new trial
“merely because it might have come to a different
result from that reached by the jury.” Roy v.
Volkswagen of Am., Inc., 896 F.2d 1174, 1176 (9th Cir.
1990) (quotation marks and citation omitted); see also
Union Oil Co. of Cal. v. Terrible Herbst, Inc., 331 F.3d
735, 743 (9th Cir. 2003) (“It is not the courts’ place to
substitute our evaluations for those of the jurors.”). A
court will not approve a miscarriage of justice, but “a

39a

decent respect for the collective wisdom of the jury,
and for the function entrusted to it in our system,
certainly suggests that in most cases the judge should
accept the findings of the jury, regardless of his own
doubts in the matter.” Landes Constr. Co., Inc. v.
Royal Bank of Can., 833 F.2d 1365, 1371 (9th Cir.
1987) (citations omitted).
DISCUSSION
Local government entities, like the County, can
be held directly liable for constitutional violations
under 42 U.S.C. § 1983 if a policy, custom, or practice
of the entity is shown to be the moving force behind
the constitutional violation. Monell v. Dep’t of Soc.
Servs., 436 U.S. 658, 691, 694 (1978). Plaintiffs
brought such a claim based on the County’s school
interview policy, but the jury did not find in their
favor. In the instant motion, Plaintiffs argue there
was no legally sufficient evidentiary basis for the jury
to find for the County on the Monell claim. They ask
the Court to enter judgment as a matter of law on the
Monell claim and to order a new trial on the question
of damages. In the alternative, they argue that the
verdict is against the clear weight of evidence and
request a new trial as to liability.
Plaintiffs’ Monell claim requires proof that: (1)
McCann acted under color of state law; (2) McCann’s
acts deprived L of her Fourth Amendment rights and
Sara of her Fourteenth Amendment rights; (3)
McCann acted pursuant to an expressly adopted
official policy or longstanding practice of the County;
and (4) the County’s official policy or longstanding
practice caused the deprivation of L’s and Sara’s
rights. See Trevino v. Gates, 99 F.3d 911, 918 (9th Cir.

40a

1996). The parties agree that McCann acted under
color of state law. (Joint Jury Instructions, ECF No.
127; Jury Instruction No. 13, ECF No. 147). Thus, to
prevail on their motion, Plaintiffs must show that the
evidence, construed in the light most favorable to the
County, satisfies the remaining elements and
warrants only one conclusion: that McCann violated
L’s Fourth Amendment rights and Sara’s Fourteenth
Amendment rights by conducting the school interview
and the County’s policy or practice caused that
violation. The Court considers each element in turn.
A. Deprivation of Constitutional Rights
“Two provisions of the Constitution protect the
parent-child relationship from unwanted interference
by the state: the Fourth and Fourteenth
Amendments.” Kirkpatrick v. Cnty. of Washoe, 843
F.3d 784, 788 (9th Cir. 2016). For a child, the Fourth
Amendment protects the child’s right to be free from
an unreasonable seizure of his or her person. U.S.
Const. amend. IV. For a parent, the Fourteenth
Amendment safeguards a parent’s right to make
decisions about the care, custody, and control of his or
her child. Troxel v. Granville, 530 U.S. 57, 65 (2000).
In this case, substantial evidence does not support the
jury’s verdict that no constitutional violation
occurred. Instead, the evidence supports only one
conclusion: that McCann violated L’s Fourth
Amendment
rights
and
Sara’s
Fourteenth
Amendment rights.

41a

1.

Violation
of
L’s
Amendment Rights

Fourth

To succeed on L’s Fourth Amendment claim,
Plaintiffs must show that a seizure occurred and that
the seizure was unreasonable. A seizure occurs when,
in light of all the circumstances, a reasonable person
would have believed that he or she was not free to
leave. Jones v. Cnty. of Los Angeles, 802 F.3d 990,
1000-01 (9th Cir. 2015) (citing United States v.
Mendenhall, 446 U.S. 544, 554 (1980)). “The Ninth
Circuit has identified five [nonexclusive] factors that
aid in determining whether a person’s liberty has
been so restrained.” United States v. Brown, 563 F.3d
410, 415 (9th Cir. 2009). Those factors are (1) the
number of officers present, (2) whether weapons were
displayed, (3) whether the encounter occurred in a
public or non-public setting, (4) whether the officer’s
authoritative manner would imply that compliance
would be compelled, and (4) whether the officers
advised the detainee of his right to terminate the
encounter. Id. These factors do not fit neatly into the
context of a child interviewed by a social worker
during a child abuse investigation. Because whether
a seizure occurs depends on the totality of
circumstances, the Court also considers L’s age,
education, mental development, and familiarity with
the interview process. Cf. Aguilera v. Baca, 510 F.3d
1161, 1169-70 (9th Cir. 2007) (considering factors
tailored to the context of the alleged seizure).
L is a young child with known behavioral
disorders. She was taken out of class by school
officials. She was not taken to the playground or the
cafeteria to talk. She was not sent to a comfortable or
familiar place. Instead, L was brought to an

42a

unoccupied office in her school’s administrative office
area to speak alone with McCann. Police officers were
not present. McCann advised L that she could stop the
interview at any time, but she did not inform L that
she could decline to be interviewed.
L was wary of McCann after her first interview.
L knew that McCann had the power to disrupt her life.
L understood that McCann had caused her stepfather to move out of the house. Indeed, L told
McCann that “things have gotten worse” since the last
time she spoke to McCann. While the interview may
have lasted only five minutes, McCann asked L about
intimate details of her family life. The two discussed
where Robert Dees was living, what her mother
thought about Robert being out of the home, and
whether inappropriate photographs had been taken.
L “was brief” in answering McCann.
L did not end the interview on her own.
Instead, the interview ended “naturally,” according to
McCann, when she finished asking questions.
McCann testified that L did not seem upset, but the
circumstances show that L was upset by the
interview. After the interview, L ran down the school
hallway to find her mother and asked her mother
whether McCann was there to “take” her.
Under these circumstances, the Court finds
that the only reasonable conclusion is that McCann
seized L. A reasonable nine-year-old child who is
called out of class by school officials for the purpose of
meeting with a social worker who has already
disturbed the child’s family life, and who is not
advised that she may refuse to speak with the social
worker, will feel compelled to talk to the social worker

43a

and remain there until dismissed. Other courts have
found that similar circumstances constitute a seizure.
See Doe v. Heck, 327 F.3d 492, 510 (7th Cir. 2003)
(holding that 20-minute interview of eleven-year-old
boy was a seizure where the child was escorted from
class by the principal, caseworkers, and a uniformed
police officer into church’s empty nursery and
questioned by the caseworkers, with the police officer
present, about whether the principal or his parents
had spanked him); Greene, 588 F.3d at 1022
(concluding that nine-year-old girl was seized where
taken out of class and interviewed in a private office
for two hours by a social worker in the presence of a
uniformed police officer, even though the child “did
not ask to call home, did not ask to have a [school
counselor] or her parents with her, and did not cry”);
cf. Stoot v. City of Everett, 582 F.3d 910, 918 (9th Cir.
2009) (holding that two-hour school interview of 14year-old boy during which police detective threatened
punishment if the child denied guilt and promised
leniency if he admitted guilt constituted a seizure);
Jones v. Hunt, 410 F.3d 1221, 1226 (10th Cir. 2005)
(holding that an “emotionally vulnerable” 16-year-old
female was seized where a social worker and
uniformed police officer, both of whom the teenager
knew “had the authority to determine her custodial
care,” confined her for an “hour or two” in a small
office at her school and repeatedly threatened that
they would arrest her if she did not agree to live with
her father).
The next question is whether the seizure was
reasonable. Neither the Supreme Court nor the Ninth
Circuit has decided what reasonableness standard
applies to seizures of children at school during child
abuse investigations. Both parties recognize that the

44a

standard is neither settled nor decided. Plaintiffs
argue that McCann needed a warrant, court order, or
one of the traditional exceptions to the warrant
requirement to justify the seizure. They further
contend that the seizure was not reasonable even
under the lesser standard of reasonableness
applicable to cases concerning searches and seizures
on school grounds by school officials for the purposes
of maintaining discipline. That standard, outlined in
New Jersey v. T.L.O., 469 U.S. 325, 341 (1985),
requires only that the search or seizure be reasonable
under all the circumstances. The County, while
arguing that T.L.O. is not applicable, simultaneously
advocates for a general reasonableness standard.
In Greene v. Camreta, the Ninth Circuit applied
the traditional Fourth Amendment protections to a
social worker’s in-school interview of a suspected child
abuse victim during a child abuse investigation. The
court reasoned that “law enforcement personnel and
purposes were too deeply involved in the seizure . . .
to justify applying the” T.L.O. standard. Greene, 588
F.3d at 1027. The interview at issue was motivated by
law enforcement purposes, not by the need for schoolrelated discipline. Against this backdrop, the Ninth
Circuit held that the seizure of a nine-year-old child
“in the absence of a warrant, a court order, exigent
circumstances,
or
parental
consent
was
unconstitutional.” Id. at 1030. The Supreme Court
eventually vacated this portion of the Ninth Circuit’s
opinion as moot because the suspected victim had
reached the age of majority and moved out of the
state, meaning that “she [was] no longer in need of
any protection from the challenged practice.” Camreta
v. Greene, 563 U.S. 692, 711 (2011). The Supreme

45a

Court did not disapprove of the Ninth Circuit’s
reasoning.
This Court finds that Greene remains
persuasive. Like the social worker in Greene, McCann
was acting as a law enforcement officer when she
arrived at the school to interview L. She pursued the
interview to ensure Robert Dees was out of the home
and to check, once again, on the children before she
closed her investigation. Had she learned about any
abuse, she would have been required to report that
abuse and notify the police, and she could have
removed L from her parents’ custody. See Cal. Penal
Code § 11165.7 (defining a “mandated reporter” to
include a social workers), § 11166 (explaining
obligations of a mandated reporter and police
notification requirement); Cal. Welf. & Inst. Code §
306 (describing powers of social worker). The
interview was not undertaken by school officials for
the purposes of maintaining order in the school. As
the Ninth Circuit explained in Greene, under such
circumstances, the traditional procedural protections
of the Fourth Amendments are required. See Greene,
588 F.3d at 1024-30.
Thus, McCann needed a warrant, court order,
parental consent, exigency, or at the very least,
reasonable suspicion to seize and interview L. She
had none of these. The County admits that McCann
did not have a warrant, court order, consent, or
exigent circumstances. (Opp’n at 11-12). Nor did she
have reasonable suspicion that L was the subject of
child abuse and neglect. See Terry v. Ohio, 392 U.S. 1,
19-27 (1968) (holding that an officer’s reasonable
suspicion of criminal activity may justify a brief

46a

investigatory detention).2 McCann testified that on
the day of the interview, she had no information to
lead her to believe that the children were in any
danger. (2/8/17 Trial Tr. at 143:7-13). The police had
ended their investigation, and McCann’s supervisor
had told her to “wrap . . . up and close” her
investigation two weeks earlier. (2/8/17 Trial Tr. at
54:5-7; Pls.’ Ex. 2). Drawing all inferences in the
County’s favor, the only reasonable conclusion from
this evidence is that there were no exigencies and
McCann had neither reasonable suspicion nor
parental consent at the time of the interview.
Therefore, because McCann lacked a warrant, court
order, parental consent, exigency, or reasonable
suspicion, she conducted the school interview in
violation of L’s Fourth Amendment rights.
2.

Violation of Sara’s Fourteenth
Amendment Rights

The Fourteenth Amendment provides that no
state may “deprive any person of life, liberty, or
property, without due process of law.” U.S. Const.
XIV, § 1. Parents have a well-established liberty
interest in the “companionship, care, custody and
management of [their] children.” Lassiter v. Dep’t of
Soc. Servs., 452 U.S. 18, 27 (1981); Meyer v. Nebraska,
262 U.S. 390, 399, 401 (1923) (explaining that the
constitutionally protected liberty interest includes the
right to “establish a home and bring up children” and
“to control the education of their own”). The right to
2
Greene did not consider whether reasonable suspicion could
justify a seizure of a suspected child abuse victim in a child abuse
investigation. The Court assumes, without deciding, that a
seizure could be reasonable if the social worker had reasonable
suspicion that the child was the victim of child abuse and neglect.

47a

familial relations is not, however, absolute. A parent’s
rights are limited by the government’s compelling
interest in protecting a minor child. See Wallis, 202
F.3d at 1138. For instance, the “right to family
integrity clearly does not include a constitutional
right to be free from child abuse investigations.”
Watterson v. Page, 987 F.2d 1, 8 (1st Cir. 1993) (citing
Stanley v. Illinois, 405 U.S. 645, 649 (1972)). Official
conduct must “shock the conscience” to be a
Fourteenth Amendment violation. Porter v. Osborn,
546 F.3d 1131, 1137 (9th Cir. 2008). A social worker’s
conduct shocks the conscience when he or she acts
with “deliberate indifference,” which means
“conscious or reckless disregard of the consequences
of one’s acts or omissions.” Gantt v. City of Los
Angeles, 717 F.3d 702, 708 (9th Cir. 2013).
Here, the only reasonable conclusion from the
evidence is that McCann unconstitutionally
interfered with Sara’s familial rights. Sara had a right
to raise her child as she saw fit, which included a right
to protect her child from being seized without the
procedural protections of the Fourth Amendment. See
Doe, 327 F.3d at 524 (holding that “because the
defendants had no evidence giving rise to a reasonable
suspicion that the plaintiff parents were abusing their
children, or that they were complicit in any such
abuse, the defendants violated the plaintiffs’ right to
familial relations by conducting a custodial interview
of John Doe Jr. without notifying or obtaining the
consent of his parents”). McCann interfered with
Sara’s rights by conducting the interview in the
absence of a warrant, court order, parental consent,
exigency, or reasonable suspicion.

48a

Sara’s rights were not limited by the
government’s interest in protecting L. In fact, the
County lacked a compelling interest at the time of L’s
school interview. A government “has no interest
whatever in protecting children from parents unless
it has some reasonable evidence that the parent is
unfit and the child is in imminent danger.” Wallis, 202
F.3d at 1141 n.14. At the time of the interview, there
was no reasonable evidence that Sara was unfit and
that L was in any danger, much less imminent
danger. Indeed, McCann admitted as such at trial.
(2/8/17 Trial Tr. at 143:7-16).
McCann’s actions were deliberately indifferent
to Sara’s rights. Prior to going to the children’s school,
McCann had no evidence of L or G having been
abused. Her supervisor had instructed her to close the
investigation. She had no evidence that either child
was in imminent danger. (2/8/17 Trial Tr. at 143:716).
What McCann did know is that Sara would not
grant consent for any further private interviews with
the children. In fact, the grandmother had told her
that Sara would insist on an attorney being present.
(2/9/17 Trial Tr. at 230:11-16). She also knew that L
was a young child with special needs and could be
upset easily. (2/8/17 Trial Tr. at 200:11-20). Yet,
without Sara’s or Mr. Gil’s consent, McCann pursued
the interview because her policy allowed her to do so.
(2/8/17 Trial Tr. at 143:21-144:5).
The evidence is clear that McCann purposely
went to the one place she knew she could find L or G
and question L or G without Sara knowing. Because
of the County’s policy, that place was the children’s

49a

school. Ironically, had McCann not been indifferent to
Sara’s rights, she could have asked for consent from
Sara right there at the school. McCann was
deliberately indifferent and that shocks the
conscience. Her conduct need not be “for the very
purpose of causing harm” to be shocking. Gantt, 717
F.3d at 708.
It is clear that “[t]he government may not,
consistent with the Constitution, interpose itself
between a fit parent and her children simply because
of the conduct—real or imagined—of the other
parent.” See Wallis, 202 F.3d at 1142 n.14. Rather,
government social workers must comply with the
procedural protections of the Fourth Amendment.
That did not happen here. The record demonstrates
that the only reasonable conclusion is that McCann
violated L’s Fourth Amendment rights and Sara’s
Fourteenth Amendment rights during the school
interview.
B.

Action Pursuant to the County’s
Policy or Practice

The jury did not decide whether McCann acted
pursuant to an official policy or longstanding practice
of the County of San Diego. In this case, the evidence
is such that, without weighing the credibility of
witnesses or otherwise considering the weight of the
evidence, the only conclusion that reasonable jurors
could have reached is that this element is satisfied.
Indeed, it does not appear that the County contests
this element.
The evidence demonstrates that the County
had an official policy and longstanding practice of

50a

permitting social workers to interview suspected
victims of child abuse, including children in the
referred family, at school without parental consent or
notification, exigency, reasonable suspicion, court
order, or warrant, as long as the social worker had an
open investigation. The County’s official policy
expressly permitted social workers to interview
children in the referred family at school without any
limitations. (Pls.’ Ex. 3). According to the County
policy, an interview may proceed even without the
consent of the parent who is not suspected of abuse or
does not live with one suspected of abuse. An
interview may occur even when the abuse allegations
have not been substantiated, there are no new
allegations, and the interview is intended to provide
only “closure” to the children. The County’s person
most knowledgeable confirmed this policy. (2/8/17
Trial Tr. at 159:18-25). Walsh and McCann further
explained that it is County social workers’ practice to
conduct such interviews so long as an investigation is
open. (2/8/17 Trial Tr. at 56:18-57:1, 78:13-79:10,
148:25-149:6).
As for whether McCann acted pursuant to
official policy and practice, there is no doubt that she
did. She testified numerous times that she went to the
school to conduct the interviews because the County’s
policy permitted her to do so. (2/8/17 Trial Tr. At
144:3-5; 2/9/17 Trial Tr. at 230:17-18, 232:9-11).
Therefore, the only remaining question is one of
causation, which the Court addresses next.

51a

C.

The County’s Policy and Practice
Caused the Violation

Because the jury did not find a constitutional
violation, it did not consider whether the County’s
policy or practice was the “moving force” behind the
constitutional violation. Monell, 436 U.S. at 694. To
meet the causation requirement, a plaintiff must
show both causation-in-fact and proximate causation.
Gravelet-Blondin v. Shelton, 728 F.3d 1086, 1096 (9th
Cir. 2013). Plaintiffs argue that “[i]t was because of
the County’s policy that McCann believed she was
authorized to conduct non-consensual interviews with
the children at their school.” (Mot. at 23). The County
responds that its policy or practice did not cause the
constitutional violations because the policy contains
safeguards to protect people’s rights, such as advising
the child that he or she may have school personnel
present and periodically assessing how the child is
doing during the interview. (Opp’n at 17). The County
argues that the policy’s procedural safeguards did not
and cannot cause a reasonable child to feel like they
were not free to leave. (Id. at 18).
Construing the evidence in the County’s favor,
and neither weighing the evidence nor witnesses’
credibility, the Court finds that the County’s policy
and the particular injuries are cause and effect.
McCann conducted the school interview despite
lacking a court order, warrant, parental consent,
exigency, or reasonable suspicion because her policy
allowed her to do so. She admitted this multiple times
at trial. For instance:
Q: So why didn’t you ask Mrs. Dees for
her permission to interview the kids at
school?

52a

A: At that point, I have an open
investigation. I’m just trying to get out of
the case. And I – per policy, I can – I can
see kids and wrap it up at school.
(2/9/17 Trial Tr. at 232:9-11; see also 2/8/17 Trial Tr.
at 144:3-5; 2/9/17 Trial Tr. at 230:17-18). She pursued
the school interviews even though she knew that the
children were not allowed to be interviewed again
without an attorney present. (2/9/17 Trial Tr. at
230:11-22). But for the policy, McCann would not have
interviewed L at school and Plaintiffs’ injuries would
have been avoided.
The procedural safeguards in the policy do not
save it. As an initial matter, the County’s person most
knowledgeable acknowledged that the policy does not
protect a parent’s rights to custody, care, and
companionship of his or her children. Rather, she
explained that the procedures are designed to protect
the child’s rights. But the safeguards do not
guarantee that a child interviewee feels free to leave.
The pre-interview admonishments fail to tell the
interviewee that he or she may refuse the interview.
Instead, the procedures assume that the interview
will occur. (See Pls.’ Ex. 3 (the safeguards provide that
the social worker must (1) advise the child of the right
to have school personnel present during the interview;
(2) advise the child that she may stop the interview at
any time; (3) periodically check with the child during
the interview to determine if the child is comfortable
with continuing the interview; (4) not include law
enforcement in the interview; and (5) complete the
interview within appropriate time limits (emphasis
added)). While a reasonable inference from these
procedures is that they may help a child feel more

53a

comfortable during an interview, they do not preclude
a finding that the child does not feel free to leave. If
anything, these procedures induce compliance with
the social worker. The safeguards do not prevent a
reasonable child from feeling seized.
The County’s policy and longstanding practice
of permitting social workers to interview children at
school in the absence of a court order, warrant,
parental consent, exigency, or reasonable suspicion
was the factual and proximate cause of Plaintiffs’
injuries. If the policy had required any of the Fourth
Amendment procedural protections, the interview
would not have occurred and Plaintiffs would not be
injured. But none of these conditions were present
and McCann acted deliberately because the policy
provides social workers with carte blanche to
interview children at school during “open”
investigations.
D.

The Only Reasonable Conclusion Is
Contrary to the Jury’s Verdict

The parties have been fully heard. The Court
now finds that “a reasonable jury would not have a
legally sufficient evidentiary basis to find for” the
County on Plaintiffs’ Monell claim. Fed. R. Civ. P.
50(a)(1). Without considering the credibility of
witnesses or otherwise weighing the evidence, and
drawing all reasonable inferences in the County’s
favor, the only conclusion that reasonable jurors could
have reached is that the County’s policy and practice
caused the violation of L’s and Sara’s constitutional
rights.

54a

CONCLUSION
The Court GRANTS Plaintiffs’ motion for
judgment as a matter of law and sets a status hearing
for October 19, 2017 at 1:00 pm.
Rule 50 requires that if “the court grants a
renewed motion for judgment as a matter of law, it
must also conditionally rule on any motion for a new
trial by determining whether a new trial should be
granted if the judgment is later vacated or reversed.”
Fed. R. Civ. P. 50(c)(1). Accordingly, the Court
conditionally grants the motion for a new trial
because the clear weight of evidence does not support
the verdict.
IT IS SO ORDERED.
Dated: October 10, 2017
/s/

Roger T. Benitez
Hon. Roger T. Benitez
United States District
Judge

